March 16, 2007

PRITHA MEHRA
MANAGER, MARKETING TECHNOLOGY AND CHANNEL MANAGEMENT

SUBJECT: Audit Report – Annual Mailing Fee Sharing – Package Services
         (Report Number FF-AR-07-118)

This report presents the results of our audit of annual mailing fees for package services
(Project Number 06BD002FF106). This work was initiated as a result of issues brought
to our attention during our fiscal year 2006 Financial Installation Audit of the xxxxxxxx
Business Mail Entry Unit (BMEU) (Project Number 06BD002FF102).

                                                 Background

The U.S. Postal Service collects annual mailing fees from customers who mail certain
classes of matter at discounted mailing rates. The Domestic Mail Manual1 (DMM) sets
forth the fee structure as follows:

                         Annual Mailing Fees (per 12-month period)
                         First-Class Presort, per office of mailing $160
                         Standard Mail®                             $160
                         Parcel Select                              $160
                         Presorted Media Mail                       $160
                         Presorted Library Mail                     $160
                         Bound Printed Matter: destination entry    $160

The DMM does not specifically allow for fees for package services (including Parcel
Select, Presorted Media Mail, Presorted Library Mail, and Bound Printed Matter:
destination entry) or Standard Mail to be paid once and shared among all permit imprint
accounts2 held by the same owner. For example, if a company has five permit imprint
accounts for Presorted Media Mail, and they are going to mail using each permit imprint,
then a separate annual mailing fee must be paid for each of the five permit imprint
accounts. However, a First-Class Presort mailing fee may be paid once and shared

1
  DMM 300, Rates and Fees Reference, November 2006.
2
  A mailer may be authorized to mail material without affixing postage when payment is made at the time of mailing
from a permit imprint advance deposit account. This payment method may be used for postage and extra service
fees for First-Class Mail®, Standard Mail®, and Package Services.
Annual Mailing Fee Sharing – Package Services                                 FF-AR-07-118



across permit imprints ‘owned’ by customers with no business association. For
example, if a company has five permit imprint accounts and they are going to mail First-
Class (presorted) mailings using each of those permit imprints, they can pay the annual
mailing fee once and share that fee with the other four permit imprint accounts.

Mailers must establish a mailing permit – permit imprint, precanceled stamp, meter
stamp (depending on the postage method they choose to use) – and may choose to
establish an advance deposit account(s) from which postage, per piece charges, and
other fees are deducted. For certain extra services, an advance deposit account is
required. Mailers may also elect to participate in the Centralized Account Processing
System (CAPS), which is an electronic postage payment system whereby customers
pay postage for mailings at multiple post offices through a centralized account instead
of maintaining trust accounts at each post office. CAPS was created primarily for high-
volume customers and customers with multiple mailing permits. CAPS accounts may
be used to pay for products and services, including First-Class Mail, Standard Mail,
Package Services, International Mail, and business reply mail. To qualify for a CAPS
account, customers must have either three permits in two or more post offices and
revenue of $10,000 per year; three or more permits in one location and revenue of
$50,000 per year; or permit revenue of $500,000 per year. CAPS automatically deducts
annual presort mailing and accounting fees for accounts linked to CAPS. Fees for
customers who do not participate in CAPS are paid at their local BMEU and are tracked
through the PostalOne! System.

                                 Objective, Scope, and Methodology

The objective of our audit was to determine whether appropriate mailing fees were
being collected for package services, including Parcel Select, Library Mail, Media Mail,
and Bound Printed Matter: destination entry. To accomplish this objective, we
performed fieldwork from August 25 through November 27, 2006. We reviewed all
CAPS fee payments from March 1, 2005, through August 25, 2006. We also
judgmentally selected and reviewed fee payment data for 10 BMEUs, including the
Pewaukee BMEU.3

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. Our procedures were not designed to provide assurance on internal
controls. Consequently, we do not provide an opinion on such controls. We used
Postal Service instructions, manuals, policies, and procedures as criteria to evaluate
internal controls and data reliability. We interviewed Postal Service Headquarters
officials as well as those at the Integrated Business Systems Solutions Center.

We conducted this audit from August 2006 through March 2007 in accordance with
generally accepted government auditing standards and included such tests of internal

3
    We judgmentally selected 10 large BMEUs based on revenue.



                                                       2
Annual Mailing Fee Sharing – Package Services                                                          FF-AR-07-118



controls as we considered necessary under the circumstances. We discussed the
results of our observations and conclusions with management officials on November 27,
2006, and included their comments where appropriate.

                                           Prior Audit Coverage

The U.S. Postal Service Office of Inspector General (OIG) reviews CAPS as part of the
annual Financial Statement and Field Financial audits and has not identified any issues
related to CAPS in the past 5 years.

                                                    Results

Package Services Annual Fees Incorrectly Shared

The Postal Service allowed fees to be incorrectly shared among multiple permit imprint
accounts for certain classes of mail.4 Specifically, fees are being shared for CAPS
customers who hold multiple permit imprint accounts to mail Parcel Select, Media Mail,
Library Mail, and Bound Printed Matter: destination entry at the same BMEU. In
addition, we identified instances of this occurring with non-CAPS customers at eight of
the 10 BMEUs we judgmentally selected for testing. For example, a customer that
holds two permit imprint accounts operating under two different names pays the annual
fee for Presorted Media Mail once. That fee payment is shared with the other permit
imprint account for Presorted Media Mail, and marked paid, even though no funds have
been collected for the second permit imprint account.

This occurred because CAPS was programmed to share fees across multiple permit
imprint accounts, similar to the way fees are shared for the First-Class Presort mailing
fee. According to an official at the Integrated Business Systems Solutions Center, fee
sharing for package services has been the customary practice in CAPS for
approximately 10 years. In addition, while the DMM does not specifically allow for fee
sharing for package services,5 there have been inconsistencies in the interpretation of
the DMM language regarding fee collection for these services. We obtained clarification
on the DMM from Postal Service Headquarters Business Mail Acceptance personnel,
who confirmed that the intent of the DMM was that an annual fee would be collected for
each permit imprint account mailing at those rates, and the fees would not be shared
among multiple associated permit imprint accounts for package services, unlike First-
Class Presort.

As a result, the Postal Service has not collected annual fees of $27,300 for 177 CAPS
accounts and $1,380 for nine locally managed accounts which mailed package services
for the period of March 1, 2005, through August 31, 2006. In addition, the other 354
CAPS accounts and 41 locally managed accounts we reviewed had the potential to mail
4
  Fee sharing means that a fee is paid for a customer’s permit imprint account and is marked paid for the customer’s
other permit imprint accounts, although no revenue was collected.
5
  DMM 300, Sections 363.1.4; 373.1.4; 383.1.4; 453.1.5; 473.1.4; and 483.1.4.



                                                          3
Annual Mailing Fee Sharing – Package Services                                 FF-AR-07-118



package services without paying the required fees. If corrective action is not taken, the
Postal Service may not realize an additional $44,480 in revenue over the next 2 years.
In total, this represents $73,160 of recoverable revenue loss for the Postal Service, and
we will report them as such in our Semiannual Report to Congress. Appendix A
provides the details regarding the monetary impact identified. We did not calculate the
amount of lost revenue Postal Service-wide for the locally managed accounts due to the
cost and complexity required to calculate this amount. Management agreed with the
findings and recommendations, but did not state their agreement or disagreement with
the monetary benefits. Management’s comments, in their entirety, are included in
Appendix B of this report.

Recommendation

We recommend the Manager, Marketing Technology and Channel Management:

   1. Initiate actions to clarify requirements in the Domestic Mail Manual regarding fee
      collection for package services.

Management’s Comments

Management agreed with the finding and recommendation and acknowledged that the
Domestic Mail Manual requires clarity for package services. Management will clarify
standards for annual mailing fees for package services by May 1, 2007.

Recommendation

We recommend the Manager, Marketing Technology and Channel Management:

   2. Initiate a change request to the Integrated Business System Solutions Center for
      the Centralized Account Processing System to ensure mailing fees for package
      services are properly collected in accordance with the Domestic Mail Manual.

Management’s Comments

Management acknowledged that CAPS allows for fee sharing of package service
annual fees. Management agreed to modify CAPS to address this issue by April 30,
2007. In addition, several changes will be made in CAPS to update modules that allow
fee sharing and automated fee payment, and to modify reports that generate fee
renewal letters and fee expiration notifications.




                                                4
Annual Mailing Fee Sharing – Package Services                                  FF-AR-07-118




Recommendation

We recommend the Manager, Marketing Technology and Channel Management:

   3. Provide instructions to local units regarding the collection of annual fees and fee
      sharing for package services on non-Centralized Account Processing System
      accounts.

Management’s Comments

Management agreed with our recommendation and stated they will employ a
communication and training effort within 60 days to reinforce the standards for mailing
fees and fee sharing for all classes of mail to the field business mail entry employees
and the CAPS Service Center.

Recommendation

We recommend the Manager, Marketing Technology and Channel Management:

   4. Evaluate whether collection should be made for the $27,300 of uncollected
      annual fees, and initiate actions to collect the fees, if deemed appropriate.

Management’s Comments

Management evaluated collection of the unpaid fees and will not pursue collection
efforts. Management based their decision on the likelihood that mailers relied on Postal
Service direction in regard to fee payment and the administrative costs of pursuing
collection may not justify such action.

Evaluation of Management’s Comments

Management’s comments are responsive to Recommendations 1 through 4, and
actions taken and planned should correct the issue identified in the finding.




                                                5
Annual Mailing Fee Sharing – Package Services                                FF-AR-07-118



We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions, or need additional information, please contact
Darrell Benjamin, Director, Field Financial – Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Anita J. Bizzotto
    Lynn Malcolm
    Robert L. Otto
    Susan M. Plonkey
    Sharon D. Daniel
    Chandra R. Robinson
    Deborah A. Kendall




                                                6
Annual Mailing Fee Sharing – Package Services                                                FF-AR-07-118



            APPENDIX A. DESCRIPTION OF MONETARY IMPACT
Rec.                               Recoverable
No.               Title           Revenue Loss                           Description
 4      Package Services Annual         $27,300   Uncollected annual fees for 177 CAPS accounts. (102
        Fees Incorrectly Shared                   accounts@ $150 annual fee plus 75 accounts @ $160
                                                  annual fee)

                                         44,480   Estimated uncollected fees for CAPS and locally managed
                                                  accounts for 2 additional years. (139 accounts @ $160
                                                  annual fee for 2 years)

                                          1,380   Uncollected fees for 9 non-CAPS accounts. (Six accounts
                                                  @ $150 annual fee plus three accounts @ $160 annual fee)

        Total                           $73,160




                                                   7
Annual Mailing Fee Sharing – Package Services         FF-AR-07-118



                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                8
